No. 19-123
In the

Supreme Court of the United States
SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, et al.,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Third Circuit

BRIEF OF PROFESSORS IRA C. LUPU,
FREDERICK MARK GEDICKS, WILLIAM
P. MARSHALL, AND ROBERT W. TUTTLE
AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS
David S. Flugman
Counsel of Record
Faith E. Gay
Caitlin J. Halligan
David A. Coon
Selendy & Gay PLLC
1290 Avenue of the Americas
New York, New York 10104
(212) 390-9000
dflugman@selendygay.com
Counsel for Amici Curiae
297747

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . i
TABLE OF AUTHORITIES .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
INTEREST OF AMICI CURIAE  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
SUMMARY OF ARGUMENT  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
ARGUMENT .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
I.	 T HE FREE EX ERCISE CL AUSE
DOES NOT REQUIRE RELIGIOUS
EXEMPTIONS FROM GENERALLY
APPLICABLE, RELIGION-NEUTRAL
LAWS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
A.	 Judicial recog nition of relig ious
exemptions from neutral laws has
no historical foundation .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
1.	 Ea rl y Un d e r s t a n d i n g s a n d
Practice .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
2.	 Sherber t and Yoder Diverged
from Historical Understandings
and Precedent .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
3.	 Inconsistent Application of the
Sherbert/Yoder Standard Provoked
a Restoration of Traditional Free
Exercise Principles in Smith .  .  .  .  .  .  .  . 12

ii
Table of Contents
Page
B.	 Smith correctly held that the Free
Exercise Clause does not create a right to
exemption from general laws, but rather
protects the right to be treated equally
with one’s secular counterparts .  .  .  .  .  .  .  .  . 16
II.	R E P L A C I N G S M I T H W I T H
PETITIONERS’ STRICT SCRUTINY
T EST WOU LD U NDERMINE
JUDICIA L A DMINISTRATION OF
THE LAW AND CREATE A REGIME
OF EXEMPTIONS ON DEMAND  .  .  .  .  .  .  .  .  . 23
A.	 Pe t i t i o n e r s ’ t e s t w o u l d i nj e c t
inconsistency and unpredictability
into a coherent and administrable
area of law .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24
B.	 Petitioners’ test would invite exemptions
“on demand” .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26
CONCLUSION .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Barnes v. Glen Theatre, Inc.,
501 U.S. 560 (1991)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Bob Jones Univ. v. United States,
461 U.S. 574 (1983)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 14
Bowen v. Roy,
476 U.S. 693 (1986)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 16, 24
Branzburg v. Hayes,
408 U.S. 665 (1972) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Braunfeld v. Brown,
366 U.S. 599 (1961)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25, 26
Calvary Chapel Dayton Valley v. Sisolak,
No. 19A1070, slip op. at 4-7, 591 U.S. ___
(2020)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17, 19
Cantwell v. Connecticut,
310 U.S. 296 (1940)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
Church of the Lukumi Babalu Aye, Inc. v.
Hialeah,
508 U.S. 520 (1993) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15, 17

iv
Cited Authorities
Page
City of Boerne v. Flores,
521 U.S. 507 (1997) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6, 7, 12, 16
City of Erie v. Pap’s A.M.,
529 U.S. 277 (2000) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Cohen v. Cowles Media,
501 U.S. 663 (1991)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
Cox v. State of New Hampshire,
312 U.S. 569 (1941)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Doe v. Parson,
960 F.3d 1115 (8th Cir. 2020) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
Emp’t Div., Dep’t of Human Res. of Oregon v.
Smith,
494 U.S. 872 (1990)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . passim
Espinoza v. Mont. Dep’t of Revenue,
140 S. Ct. 2246 (2020) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18, 20, 24
Frazee v. Ill. Dep’t of Emp’t Sec.,
489 U.S. 829 (1989) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
Goldman v. Weinberger,
475 U.S. 503 (1986)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 14
Heffron v.
Int’l Soc’y for Krishna Consciousness, Inc.,
452 U.S. 640 (1981)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21, 22

v
Cited Authorities
Page
Hobbie v.
Unemployment Appeals Comm’n of Fla.,
480 U.S. 136 (1987) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 24
Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC,
565 U.S. 171 (2012)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
June Med. Servs. v. Russo,
140 S. Ct. 2103 (2020) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24
Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 14, 24
Minersville School Dist. v. Gobitis,
310 U.S. 586 (1940)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8, 19
O’Lone v. Estate of Shabazz,
482 U.S. 342 (1987) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 14
Our Lady of Guadalupe Sch. v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25, 28
People v. Phillips,
Ct. Gen. Sess., City of N.Y. (June 14, 1813)  .  .  .  .  .  .  .  . 6
Perez v. Paragon Contractors, Corp.,
2014 WL 4628572 (D. Utah Sept. 11, 2014)  .  .  .  .  .  .  . 29

vi
Cited Authorities
Page
Pierce v. Soc’y of Sisters of the Holy Names of
Jesus and Mary,
268 U.S. 510 (1925)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
Plumbar v. Perrilloux,
2020 WL 3966876 (M.D. La. July 13, 2020) .  .  .  .  .  .  . 27
Prince v. Massachusetts,
321 U.S. 158 (1944)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8, 22
Reynolds v. United States,
98 U.S. 145 (1878 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
Sherbert v. Verner,
374 U.S. 398 (1963)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . passim
South Bay United Pentecostal Church v.
Newsom,
140 S. Ct. 1613 (2020)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
State v. Sunderland,
168 P.3d 526 (Haw. 2007) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
Thomas v.
Review Bd. of the Ind. Emp’t Sec. Div.,
450 U.S. 707 (1981)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . passim
Tony & Susan Alamo Found. v. Sec’y of Labor,
471 U.S. 290 (1985) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13

vii
Cited Authorities
Page
Trinity Lutheran Church of Columbia, Inc. v.
Comer,
137 S. Ct. 2012 (2017)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
United States v. Ballard,
322 U.S. 78 (1944)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
United States v. Girod,
159 F. Supp. 3d 773 (C.D. Ky. 2015) .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
United States v. Lee,
455 U.S. 252 (1982) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13, 14
United States v. O’Brien,
391 U.S. 367 (1968)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8, 9
Welsh v. United States,
398 U.S. 333 (1970)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
Wisconsin v. Yoder,
406 U.S. 205 (1972) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . passim
Zubik v. Burwell,
136 S. Ct. 1557 (2016)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

viii
Cited Authorities
Page
Statutes and Other Authorities
Ga. Const. of 1777, art. LVI .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
Ky. Const. of 1792, art. XII, § 3  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
Ky. Const. of 1792, art. XII, § 4  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
Pa. Const. of 1776, art. II .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
Donald S. Lutz, The State Constitutional Pedigree of
the U.S. Bill of Rights, 22 Publius 19 (1992) .  .  .  .  .  .  . 6
Ellis West , The Case Against a Right to
Religion-Based Exemption, 4 Notre Dame J.
	L., Ethics & Pub. Pol’y 591 (1990) .  .  .  .  .  .  .  .  .  .  .  .  . 4, 5
Frederick Mark Gedicks, Substantial Burdens:
How Courts May (and Why They Must)
Judge Burdens on Religion Under RFRA,
85 Geo. Wash. L. Rev. 94 (2017)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
F r e d e r i c k M a rk G e d i c k s , An Unf i r m
Fo un d ation: The Regrettable
Indefensibility of Religious Exemptions,
20 U. A rk. Little Rock L. J. 555 (1998) .  .  .  .  .  .  .  .  . 23
I ra C. Lupu & R obert W. T uttle , S ecula r
Government, Religious People (2014) .  .  .  .  .  .  .  .  .  . 8, 9

ix
Cited Authorities
Page
Ira C. Lupu & Robert W. Tuttle, The Mystery
of Unanimity in Hosanna-Tabor Evangelical
Lut her a n Chu rch & S chool v. EEOC,
20 Lewis & Clark L. Rev. 1265 (2017) .  .  .  .  .  .  .  .  .  .  . 28
Ira C. Lupu, Hobby Lobby and the Dubious
Ent e r p r i se of Reli g i o u s Ex e mpti o n s,
38 Harv. J. L. & Gender 35 (2015) .  .  .  .  .  .  .  .  . 8, 14, 29
James E. Ryan, Smith and the Religious Freedom
Restoration Act: An Iconoclastic Assessment,
78 Va. L. Rev. 1407 (1992) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
James H. Hutson, Church and State in A merica:
	The First T wo Centuries (2007) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
James Oleske, Lukumi at Twenty: Legacy of
Uncertainty for Religious Liberty and Animal
Welfare Laws, 19 A nimal L. Rev. 295 (2013) .  .  .  .  .  . 17
John Locke, Second Treatise of G overnment
17 (C.B. Macpherson ed. 1980) (1st ed. 1690) .  .  .  .  .  .  . 4
Philip Hamburger, A Constitutional Right
of Religious Exemption: An Histor ical
Perspective, 60 Geo. Wash. L. Rev. 915
(1992) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4, 5, 6, 7
Privileged Communications to Clergymen,
1 Cath. Law. 199 (1955) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

x
Cited Authorities
Page
Thomas J. Curry, The First Freedoms: Church
a nd S tate in A merica to the Pa ssage of
the First A mendment (1987)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
William P. Marshall, In Defense of Smith
and Free Exercise Revisionism,
58 U. Chi. L. Rev. 308 (1991) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7, 22
William P. Marshall, The Religious Freedom
Restoration Act: Establishment , Equal
Protection and Free Speech Concer ns,
56 Mont. L. Rev. 227 (1995) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21, 22
Zalman Rothschild, Free Exercise’s Lingering
Ambiguity, 11 Cal. L. Rev. 282 (2020) .  .  .  .  .  .  .  .  .  .  . 17

1
INTEREST OF AMICI CURIAE1
Ira C. Lupu is the F. Elwood & Eleanor Davis
Professor of Law Emer itus, George Washing ton
University. Frederick Mark Gedicks is the Guy Anderson
Chair & Professor of Law, Brigham Young University.
William P. Marshall is the William Rand Kenan, Jr.,
Distinguished Professor of Law, University of North
Carolina. Robert W. Tuttle is the David R. and Sherry
Kirschner Berz Research Professor of Law and Religion,
George Washington University. All of them have been
studying and writing about the First Amendment’s
Religion Clauses since the 1980s, and they submit this
brief to explain why Employment Division, Department
of Human Resources of Oregon v. Smith, 494 U.S. 872
(1990), correctly held that the Free Exercise Clause
does not mandate religious exemptions from generally
applicable, religion-neutral laws.
SUMMARY OF ARGUMENT
Smith was correctly decided. The Free Exercise
Clause mandates evenhandedness in the government’s
treatment of religion, as reflected in contemporaneous
understandings at the time of the Founding and nearly
two centuries of caselaw that followed. Although the
Court departed from this longstanding interpretation in
the line of cases beginning with Sherbert v. Verner, 374
U.S. 398 (1963), in 1990 Smith correctly reaffirmed the
1. The parties have consented to the filing of this brief.
No counsel for any party authored this brief in whole or in part.
No person or entity other than amici and their counsel made
a monetary contribution intended to fund the preparation or
submission of this brief.

2
foundational principle that the Free Exercise Clause does
not require religious exemptions from neutral laws of
general applicability. Rather, it gives religious claimants
the right to be treated equally as compared with their
secular counterparts.
In addition, Smith provides a workable framework
for adjudicating Free Exercise challenges. Precedent
dictates that strict scrutiny of burdens on religious
practice is appropriate only where a law demonstrates
hostility towards a particular faith or religion generally,
or systematically disfavors religious claimants compared
to their fully analogous secular counterparts. The strict
scrutiny test that Petitioners advance is far more sweeping
and would often be impossible for the government to
satisfy. It would invite a regime of exemptions on demand,
ensuring widespread religious carve-outs from many laws.
It also would induce courts to return to the inconsistent,
unpredictable, and arbitrary case-by-case determinations
of Free Exercise claims that marked the period between
Sherbert and Smith.
Petitioners’ approach lacks solid constitutional footing
and would be judicially unmanageable. This Court should
reaffirm Smith.
ARGUMENT
I.

THE FREE EXERCISE CLAUSE DOES NOT
REQUIRE RELIGIOUS EXEMPTIONS FROM
GEN ER A LLY A PPLICA BLE , RELIGIONNEUTRAL LAWS

The Founders enacted the Religion Clauses of the
First Amendment to ensure that the government would

3
neither meddle in explicitly religious affairs nor treat
religious adherents better or worse than anyone else.
Accordingly, in adopting the Free Exercise Clause, they
intended to place limits on the government’s power to
regulate religious beliefs and worship practices, not to
require the government to grant religious exemptions
from generally applicable, religion-neutral laws. This
Court’s decision in Smith correctly reaffirmed the
understanding—which prevailed for most of our nation’s
history—that the Free Exercise Clause requires equal
treatment of religious and secular counterparts.
A.

Judicial recognition of religious exemptions
from neutral laws has no historical foundation

In the late eighteenth century, religious freedom
was generally understood to bar the government from
targeting religious belief and worship. See James H.
Hutson, C hurch and S tate in A merica : T he F irst
T wo Centuries 137 (2007) (“On one subject there was
unanimity: Governments must not interfere in the spiritual
realm, in men’s beliefs and modes of worship.”). The Free
Exercise Clause was therefore drafted to protect religious
belief and modes of worship from legal disadvantage—
not to exempt religiously-motivated conduct from
generally applicable laws. The line of Free Exercise
decisions beginning with Sherbert, in which this Court
first recognized a constitutionally mandatory religious
exemption, departed from the original understanding.
Smith properly corrected this constitutional error. 494
U.S. at 878-79. 2
2.  Between 1990 and 1996, both Professor Gedicks and
Professor Lupu published works that expressed criticism of Smith.

4
1.

Early Understandings and Practice

For nearly the first two hundred years of our country’s
existence, the Free Exercise Clause was understood
to prohibit only those laws that explicitly impinge on
religious practice. Ellis West, The Case Against a Right
to Religion-Based Exemption, 4 Notre Dame J. L.,
Ethics & Pub. Pol’y 591, 594 (1990). Free exercise of
religion was not originally understood to include a right
to violate generally applicable, religion-neutral laws, but
instead provided “the freedom to choose and practice
one’s religion (or no religion) without being subjected to
intentional, direct government coercion or influence.” Id.
at 623. Professor Hamburger likewise concluded that 18th
century “Americans did not authorize or acknowledge a
general constitutional right of religious exemptions from
civil laws.” Philip Hamburger, A Constitutional Right of
Religious Exemption: An Historical Perspective, 60 Geo.
Wash. L. Rev. 915, 917 (1992).
This concept of free exercise dovetailed with the
general understanding of “freedom” in the eighteenth
century. Early Americans, influenced by the thinking
of John Locke, understood “freedom” to mean freedom
from “arbitrary, unauthorized, unconstitutional law”—not
the ability to evade an otherwise legitimate law. West
at 624 & n.148 (citing John Locke, Second Treatise of
Government 17 (C.B. Macpherson ed. 1980) (1st ed. 1690)).
As Locke put it, “freedom of men under government is,
to have a standing rule to live by, common to every one of
that society, and made by the legislative power erected in
After careful study, both have embraced the view, originally
defended by Professor Marshall, that Smith is correct. Professor
Tuttle has always held that view.

5
it . . . and not to be subject to the inconstant, uncertain,
unknown, arbitrary will of another man . . . .” Id. at 624
n.148.
Against this backdrop, the drafters of the First
Amendment intended to place limits on the government’s
power to regulate religious beliefs and worship practices.
Id. at 624-27; see also T homas J. Curry, T he F irst
Freedoms: Church and State in A merica to the Passage
of the First A mendment 208 (1987) (“At the Virginia
Ratifying Convention, [James] Madison had stated that
the federal government had not the ‘shadow of a right . . . to
intermeddle with religion,’ and all Americans, Federalists
and Antifederalists, agreed with him.”).
The religious liberty clauses of early state constitutions,
which predate the federal Constitution, confirm this
understanding of religious freedom. State religious
liberty clauses typically took one of three forms. Some
reflected the view that the government could restrict both
worship and religious beliefs that it deemed dangerous;
these states expressly authorized disfavored treatment
for adherents of particular religions. Hamburger at 922;
e.g., Ga. Const. of 1777, art. LVI (expressly permitting
state to deny free exercise rights to religious exercise
“repugnant to the peace and safety of the State”). Many
others allowed for worship practices so long as they
did not “breach the peace,” meaning the government
could prohibit religious conduct that violated civil law.
Hamburger at 922. The Northwest Ordinance (passed
in 1787 to establish a government for the Northwest
Territory) took this approach by specifying that “[n]o
person demeaning himself in a peaceable and orderly
manner shall ever be molested on account of his mode

6
of worship or religious sentiments in the said territory.”
Id at 922-23. Finally, other state constitutions contained
“provisions condemning the punishment of individuals
‘on account’ of their religious beliefs.” Id at 923; e.g., Ky.
Const. of 1792, art. XII, §§ 3, 4; Pa. Const. of 1776, art.
II. None of these approaches exempted worship practices,
or religiously motivated conduct unrelated to worship,
proselytizing, or religious education, from general laws.
The Framers drew upon corresponding provisions
in the various state constitutions when drafting the Bill
of Rights. See Donald S. Lutz, The State Constitutional
Pedigree of the U.S. Bill of Rights, 22 Publius 19, 19-29
(1992). The absence of state law provisions requiring
religious exemptions from neutral laws thus strongly
supports a similar interpretation of the Free Exercise
Clause.
Jurisprudence from the decades following the
Founding confirms that the Free Exercise Clause was
not understood to require religious exemptions from
neutral laws. As Justice Scalia observed in City of
Boerne v. Flores, “[h]ad the understanding in the period
surrounding the ratification of the Bill of Rights been that
. . . various forms of accommodation . . . were constitutionally
required (either by State Constitutions or by the Federal
Constitution), it would be surprising not to find a single state
or federal case refusing to enforce a generally applicable
statute because of its failure to make accommodation.” 521
U.S. 507, 542 (1997) (concurring opinion). Yet, as Justice
Scalia noted, “none exists.”3 Id. at 543.
3. Justice Scalia identified only a single possible exception,
decided in a lower court and arising entirely under state law.
521 U.S. at 543 (citing People v. Phillips, Ct. Gen. Sess., City of

7
When first called upon to decide whether the Free
Exercise Clause requires religious exemptions from
generally applicable, religion-neutral laws, this Court
found that it does not. Reynolds v. United States, 98 U.S.
145 (1878); see also Smith, 494 U.S. at 879. As this Court
declared in Reynolds: “[t]o permit [religious exemptions
from neutral laws] would be to make the professed
doctrines of religious belief superior to the law of the land,
and in effect to permit every citizen to become a law unto
himself.” 98 U.S. at 167.4
For eighty-five years following Reynolds, this Court
declined to grant special treatment to religious claimants
under the Free Exercise Clause, or to elevate Free Exercise
N.Y. (June 14, 1813), excerpted in Privileged Communications
to Clergymen, 1 Cath. Law. 199 (1955)). Although legislatures
have enacted religious exemptions throughout American history
(including exemptions to swearing oaths and participating in
military service), no court ever held that they were required
by the First Amendment. Hamburger at 929. Such statutory
accommodations thus do not shed light on what the Free Exercise
Clause requires. William P. Marshall, In Defense of Smith and
Free Exercise Revisionism, 58 U. Chi. L. Rev. 308, 323 (1991).
Justice Scalia made the same point in City of Boerne, noting that
the Constitution does not mandate religious exemptions, though
legislatures may grant them. See 521 U.S. at 541.
4.  Petitioners argue that the claimant in Reynolds sought
a religious exemption without regard to any countervailing
governmental interest and that Reynolds relied on reasoning
that is inconsistent with later precedent. Brief for Petitioners at
48-49, Fulton v. City of Philadelphia, No. 19-123 (filed May 27,
2020). Both points are irrelevant; Reynolds demonstrates this
Court’s historical understanding that the Free Exercise Clause
does not require religious exemptions from generally applicable,
religion-neutral laws.

8
claims over free speech claims and conscientious moral
objections to religion-neutral laws. See Minersville School
Dist. v. Gobitis, 310 U.S. 586 (1940) (rejecting Jehovah’s
Witnesses’ claim to a Free Exercise exemption from a
law requiring school children to salute the flag); Prince
v. Massachusetts, 321 U.S. 158 (1944) (rejecting Free
Exercise claim of Jehovah’s Witness convicted for violating
law that prohibited children from selling newspapers in
streets and public places). As Justice Rutledge wrote in
Prince, “[i]f . . . appellant seeks for freedom of conscience
a broader protection than for freedom of the mind, it may
be doubted that any of the great liberties insured by the
First Article can be given higher place than the others.”
Id. at 164; see also Ira C. Lupu, Hobby Lobby and the
Dubious Enterprise of Religious Exemptions, 38 Harv.
J. L. & Gender 35, 48-49 (2015).
Prior to Sherbert, religious claimants prevailed
on Free Exercise claims only when “considerations
of religious liberty informed more general claims of
personal liberty, instead of creating religiously exclusive
rights.” See Ira C. Lupu & Robert W. Tuttle, Secular
Government, Religious People 180, 183 (2014). In these
cases, the Court’s rulings protected rights sounding
in both religious and secular concerns like free speech
and due process. See, e.g., Pierce v. Soc’y of Sisters of
the Holy Names of Jesus and Mary, 268 U.S. 510 (1925)
(sustaining religious plaintiffs’ due process challenge to
a statute requiring all children to attend secular public
school); W. Va. State Bd. of Educ. v. Barnette, 319 U.S.
624 (1943) (holding that requiring children in public
schools to salute the American flag infringes freedom of
speech and worship); Cantwell v. Connecticut, 310 U.S.
296 (1940) (finding that punishing Jehovah’s Witness
street proselytizer violates freedom of speech and Free

9
Exercise). Protecting religious liberty interests as part
of more general rights maintained crucial church-state
boundaries, as courts could base their decisions on broader
nonreligious principles, and therefore were not required
to evaluate questions of religiosity. See, e.g., Barnette,
319 U.S. at 634-35 (observing that the case did not “turn
on one’s possession of particular religious views or the
sincerity with which they are held”); see also Lupu &
T uttle, Secular G overnment, Religious P eople, at
188-89.
Consistent with the original understanding and
the Court’s historical precedents, these pre-Sherbert
decisions recognized that the Free Exercise Clause does
not require that the government exempt citizens from
generally applicable laws on the basis of their religious
beliefs. In 1961, however, this Court set the stage for
Sherbert’s interest-balancing test by evaluating a Free
Exercise exemption claim in terms of the burden on the
claimant’s religion and the availability of less burdensome
alternatives. See Braunfeld v. Brown, 366 U.S. 599 (1961);
see also Lupu & Tuttle, Secular Government, Religious
People, at 190-91. Two years later, in Sherbert, the Court
mistakenly brought into question two centuries of history
and precedent holding that the Free Exercise Clause
does not mandate religious exemptions from generally
applicable laws, thereby setting free exercise doctrine on
an unsustainable path.
2.

Sherber t a nd Yoder Diverged f rom
Historical Understandings and Precedent

In Sherbert, Adell Sherbert claimed that a state law
disqualifying her from unemployment benefits on the
basis of her religious objection to working on Saturdays

10
abridged her Free Exercise rights. 374 U.S. at 399-401.
This Court held that the First Amendment allowed such
disqualification only if it “represent[ed] no infringement by
the State of her constitutional rights of free exercise,” or if
“any incidental burden on the free exercise of appellant’s
religion [was] justified by a compelling state interest in
the regulation of a subject within the State’s constitutional
power to regulate.” Id. at 403 (internal quotation marks
and alterations omitted). The Court found that, by denying
Sherbert unemployment benefits without demonstrating
a countervailing compelling state interest, the state had
unconstitutionally burdened her Free Exercise rights.
Id. at 406-10.
The invocation of a “compelling interest” test
was unnecessary to decide the case. South Carolina
discriminated in favor of the majority of Christians
by protecting them against discharge for refusing to
work on Sundays. 374 U.S. at 406. This denominational
discrimination was a sufficient basis for upholding
Sherbert’s claim under the Court’s existing precedents
without importing strict scrutiny. Cf. id. (noting that
denominational discr imination “compounded the
unconstitutionality” of the treatment of Saturday
Sabbatarians.)
Instead, by mandating a religious exemption to a
generally applicable, religion-neutral law, Sherbert broke
sharply from the Court’s previously settled approach
to Free Exercise claims. See id. at 418 (Harlan, J.,
dissenting) (“Today’s decision is disturbing . . . in its
rejection of existing precedent . . . .”). For the first time, the
Sherbert Court abandoned its traditional approach (which
declined to grant special treatment to religious claimants)
and elevated the rights of a religious claimant over those

11
of her secular counterparts. See id. at 416 (Stewart, J.,
concurring in the result) (noting that, under the Court’s
decision, “the State must prefer a religious over a secular
ground for being unavailable for work . . . .”); id. at 422
(Harlan, J., dissenting) (“The State . . . must single out
for financial assistance those whose behavior is religiously
motivated, even though it denies such assistance to others
whose identical behavior . . . is not religiously motivated.”).
This Court’s decision in Wisconsin v. Yoder, 406
U.S. 205 (1972), deepened the break with the historical
understanding of the Free Exercise Clause. Respondents,
convicted for violating Wisconsin’s compulsory schoolattendance law, claimed that their convictions were invalid
under the Free Exercise Clause because sending their
children (aged 14-15) to school threatened their traditional
agrarian and religious way of life. Id. at 207-12. Citing
Sherbert for the proposition that a “regulation neutral
on its face may, in its application, nonetheless offend the
constitutional requirement for governmental neutrality
if it unduly burdens the free exercise of religion,” id. at
220, the Yoder Court determined that the compulsory
education law “would gravely endanger if not destroy
the free exercise of respondents’ religious beliefs,” id.
at 219. The Court rejected Wisconsin’s contention that
“its interest in its system of compulsory education is so
compelling that even the established religious practices
of the Amish must give way.” Id. at 221. Notably, the
Court framed the relevant state interest narrowly, as the
“interest in compelling the school attendance of Amish
children to age 16,” rather than the more “substantial”
interest of “requiring such attendance for children
generally.” Id. at 228-29. As the next section of this brief
demonstrates, the focus on the state’s interest in avoiding
an exemption for particular claimants, as distinguished

12
from its more general interest in advancing its policy
goals, would eventually prove to be among the elements
of Free Exercise law most subject to manipulation.
3.

Inconsistent Application of the Sherbert/
Yoder Standard Provoked a Restoration
of Traditional Free Exercise Principles
in Smith

Petitioners badly mischaracterize this Court’s Free
Exercise Clause jurisprudence between Sherbert in 1963
and Smith in 1990. Far from being stable and predictable,
see, e.g., Pet. Br. 50, it reflected a chaotic, results-oriented
approach, under which the Sherbert/Yoder standard was
applied selectively and arbitrarily—if at all. See generally
Smith, 494 U.S. at 882-84 (collecting Free Exercise cases
in which the Court declined to apply Sherbert).
Had the Court faithfully applied strict scrutiny during
this period, the government would have consistently lost.
The Sherbert/Yoder rule, after all, demanded that the
government have a compelling state interest in its policy
goals—not only generally, but as applied against a specific
group of religions claimants—and that the government
action be “the least restrictive means of achieving” that
compelling interest. See Thomas v. Review Bd. of the Ind.
Emp’t Sec. Div., 450 U.S. 707, 718 (1981). As this Court
has recognized, this standard “is the most demanding
test known to constitutional law.” City of Boerne, 521
U.S. at 534. Yet, despite facing what should have been a
nearly insurmountable standard, the government almost
always prevailed. Aside from Yoder, the only successful
claims relying solely on the Free Exercise Clause
involved eligibility for unemployment benefits—cases
squarely governed by Sherbert because they involved

13
“denials of unemployment compensation benefits to those
who have refused work on the basis of their religious
beliefs.” Frazee v. Ill. Dep’t of Emp’t Sec., 489 U.S. 829,
832 (1989) (Free Exercise claimant who could not work
between sundown Friday and sundown Saturday for
religious reasons entitled to unemployment benefits); see
also Hobbie v. Unemployment Appeals Comm’n of Fla.,
480 U.S. 136 (1987) (Free Exercise claimant who could
not work Friday and Saturday evenings for religious
reasons entitled to unemployment benefits); Thomas,
450 U.S. 707 (Free Exercise claimant who could not work
in arms manufacturing for religious reasons entitled to
unemployment benefits).
Outside of that narrow context, the government won
in every case in this Court across a remarkably broad
range of Free Exercise claims. 5 The Petitioners and their
5.  See, e.g., Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988) (denying claim that the government paving a
highway through grounds used for religious rituals violated the
Free Exercise Clause); O’Lone v. Estate of Shabazz, 482 U.S.
342 (1987) (denying claim that prison policy preventing Muslim
inmates from attending worship services violated the Free
Exercise Clause); Bowen v. Roy, 476 U.S. 693 (1986) (denying
claim that requiring a Social Security number in order to receive
certain benefits violated the Free Exercise Clause); Goldman v.
Weinberger, 475 U.S. 503 (1986) (denying claim that prohibiting
yarmulkes with Air Force uniforms violated the Free Exercise
Clause); Tony & Susan Alamo Found. v. Sec’y of Labor, 471
U.S. 290 (1985) (denying claim that application of the Fair
Labor Standards Act to religious foundation violated the Free
Exercise Clause); Bob Jones Univ. v. United States, 461 U.S. 574
(1983) (denying claim that stripping university, which prohibited
interracial dating and marriage, of its tax-exempt status violated
the Free Exercise Clause); United States v. Lee, 455 U.S. 252
(1982) (denying claim that requiring Amish employer to comply

14
amici barely mention these decisions, no doubt because
they disrupt Petitioners’ false narrative of doctrinal
stability and predictability. Yet the interregnum between
Sherbert and Smith is marked by this Court’s persistent
efforts to avoid the consequences of strict scrutiny. In part,
the Court accomplished this by categorically exempting
whole swaths of state action from strict scrutiny. See, e.g.,
Shabazz, 482 U.S. 342 (1987) (declining to apply strict
scrutiny to prison policy); Weinberger, 475 U.S. 503 (1986)
(declining to apply strict scrutiny to military policy). In
other contexts, the Court retreated from the narrow
conception of the government’s interest employed in Yoder,
instead crediting “the government’s wholesale interest in
refusing to entertain any exemption claims whatsoever” in
those contexts. Lupu, Dubious Enterprise, at 52; see also,
e.g., Lee, 455 U.S. at 261 (emphasizing need for uniform
social security policy and declining to exempt Amish
employers); Bob Jones Univ., 461 U.S. at 604 (stating
that government’s general interest in eliminating racial
discrimination “substantially outweighs” the burden that
denial of tax benefits places on university’s exercise of its
beliefs). In yet another case, the Court sidestepped strict
scrutiny by refusing to find a “substantial burden” on
religious practice from government development on public
lands that would have disturbed sacred Native American
ceremonial sites and devastated worship practices. Lyng,
485 U.S. at 447-53. These workarounds so diminished the
force of Sherbert and Yoder that, by the time of Smith,
little was left of them: Free Exercise jurisprudence had
been completely hollowed out.6
with social security requirements violated the Free Exercise
Clause).
6.  The lower courts tended to follow the pattern of working
around Sherbert and Yoder. See James E. Ryan, Smith and the

15
After these wholesale departures from strict scrutiny,
the Court eventually acknowledged that the standard
was thoroughly ill-suited to Free Exercise jurisprudence.
In Smith, the Court squarely addressed the pattern of
its Free Exercise decisions since Sherbert and Yoder.
Returning to the historical understanding and this
Court’s pre-Sherbert precedents, the Court held that
application of the Sherbert test to generally applicable
laws is inconsistent with the longstanding norm of not
requiring Free Exercise exemptions. Accordingly, the
Court rejected respondents’ claim that Oregon’s criminal
prohibition on the use of peyote (which did not target their
religious practice but made no exception for sacramental
use) violated the Free Exercise Clause, and held that the
Clause does not compel courts to grant exemptions from
generally applicable laws to individuals with religious
motivations for violating those laws. 494 U.S. at 878.
In declining to apply Sherbert and Yoder, the Court
emphasized that the unwieldiness of the test in those
cases had made them largely irrelevant. “Although we
have sometimes purported to apply the Sherbert test in
contexts other than [unemployment compensation],” the
Court explained, “we have always found the test satisfied”;
“[i]n recent years we have abstained from applying the
Sherbert test (outside the unemployment compensation
field) at all.” Id. at 883. Given Sherbert’s unworkability,
the Court returned to the stable foundation of its earlier
decisions, announcing “in accord with the vast majority
of our precedents,” it would “hold the [Sherbert] test
inapplicable” to generally applicable laws. Id. at 885. It
reaffirmed that holding in Church of the Lukumi Babalu
Religious Freedom Restoration Act: An Iconoclastic Assessment,
78 Va . L. Rev. 1407, 1416-1437 (1992).

16
Aye, Inc. v. Hialeah, 508 U.S. 520 (1993), and in City of
Boerne, 521 U.S. at 514 (“Smith held that neutral, generally
applicable laws may be applied to religious practices
even when not supported by a compelling governmental
interest.”). As Smith prescribed, Sherbert has since been
tightly confined to situations “where the State has in place
a system of individual exemptions”; under such regimes,
the state “may not refuse to extend . . . to cases of ‘religious
hardship’ without compelling reason.” 494 U.S. at 884
(citing Bowen v. Roy, 476 U.S. at 708).
With this significant cabining of Sherbert, Smith
rejected the principle that any generally applicable,
religion-neutral government regulation “may, in its
application, nonetheless offend the constitutional
requirement for governmental neutrality if it unduly
burdens the free exercise of religion.” Yoder, 406 U.S. at
220. Smith thus returned the law of religious exemptions
to the original understanding and long-controlling
application of the Free Exercise Clause. 494 U.S. at
885 (“To make an individual’s obligation to obey [a
generally applicable criminal law] contingent upon the
law’s coincidence with his religious beliefs, except where
the State’s interest is ‘compelling’ . . . contradicts both
constitutional tradition and common sense.”).
B. Smith correctly held that the Free Exercise
Clause does not create a right to exemption
from general laws, but rather protects the
right to be treated equally with one’s secular
counterparts
The rule set forth in Smith and its progeny faithfully
applies the Constitution’s mandate of evenhandedness in
the government’s treatment of religion and is consistent

17
with other First Amendment protections. As this Court
soon recognized in Lukumi, 508 U.S. 520, the concepts
of general applicability and neutrality toward religion
provide the required constitutional protection against
government departures from evenhandedness. Lukumi
involved a set of local ordinances gerrymandered to apply
exclusively to the Santeria faith’s practices of animal
sacrifice. Id. at 527. This unconstitutional gerrymander
reflected hostility to the Santerian faith, rather than any
general policy about cruelty to animals, and therefore
violated constitutional norms against singling out religious
conduct for disfavor. Id. at 535-36. Lukumi thus made
clear that government action that targets a particular
religion or religion generally is not subject to the Smith
rule. Because such actions are neither religion-neutral nor
generally applicable, the burden they impose on religious
exercise constitutes religious discrimination, properly
subject to strict scrutiny. Id. at 532-33.
The line between religion-neutral laws subject to
minimal review under Smith, and non-neutral laws subject
to strict review under Lukumi, has been the subject of
considerable dispute.7 Some have contended that the
presence of any secular exceptions to a law destroys its
general applicability and religious neutrality, 8 thereby
7.  For a careful review of the competing positions, see James
Oleske, Lukumi at Twenty: Legacy of Uncertainty for Religious
Liberty and Animal Welfare Laws, 19 A nimal L. Rev. 295 (2013);
Zalman Rothschild, Free Exercise’s Lingering Ambiguity, 11 Cal.
L. Rev. 282 (2020).
8.  See Calvary Chapel Dayton Valley v. Sisolak, No. 19A1070,
slip op. at 4-7, 591 U.S. ___ (2020) (Kavanaugh, J., dissenting)
(arguing that the state must have a compelling interest in treating
religious entities worse than any secular entity).

18
negating the Smith rule. This approach would thoroughly
undermine Smith rather than sensibly apply its premises.
Most laws have exceptions of some kind; many laws also
restrict their application to activities of certain sizes and
kinds. If a single exception from a law or the slightest
limitation of its scope is enough to destroy its general
applicability, then Smith would rarely govern. Once
courts head down this path, legitimate and substantial
government interests will be regularly subordinated to
religious exemption claims, because any exception or
limitation in scope will undermine the state’s position that
its interest is compelling.
In order to maintain the constitutionally appropriate
relationship between the Smith principle and the Lukumi
exception, this Court should require a religious claimant to
show that its interests are being impermissibly disfavored
compared to those engaged in analogous secular activity.
To make that show ing, a religious claimant must
demonstrate that the law’s treatment of religious actors
reveals hostility to a particular faith, see Lukumi, or
discriminates against religion generally, see Espinoza
v. Mont. Dep’t of Revenue, 140 S. Ct. 2246 (2020). In the
absence of either showing, it is constitutionally appropriate
to presume that the state has not discriminated against
religion.
A cogent example is this Court’s treatment of state
regulation of religious gatherings during the COVID-19
pandemic. Chief Justice Roberts’ concurring opinion
in South Bay United Pentecostal Church v. Newsom
addressed the appropriate considerations:
A lt hough Ca l i for n ia’s g u idel i nes pla ce
restr ictions on places of worship, those

19
restrictions appear consistent with the Free
Exercise Clause of the First Amendment.
Similar or more severe restrictions apply to
comparable secular gatherings, including
lectures, concerts, movie showings, spectator
sports, and theatrical performances, where
large groups of people gather in close proximity
for extended periods of time. And the Order
exempts or treats more leniently only dissimilar
activities, such as operating grocery stores,
banks, and laundromats, in which people
neither congregate in large groups nor remain
in close proximity for extended periods.
140 S. Ct. 1613 (2020) (Roberts, C.J., concurring).
As this analysis reveals, the reach of Smith is not
limited to laws that apply identically to everyone, with
no differences recognized. Rather, the touchstone is the
relevant secular comparator to religious activity: Smith
applies to laws and policies that treat religious conduct
similarly to secular conduct that has the same implications
for relevant government interests. Such laws and policies
are “not aimed at the promotion or restriction of religious
beliefs.” Smith, 494 U.S. at 879 (internal quotation marks
omitted) (quoting Gobitis, 310 U.S. at 594-95).9
9.  The Court’s disposition of Calvary Chapel Dayton Valley,
591 U.S. ___, can best be understood as involving the application
of a similar principle. Nevada had classified different gatherings
in ways that reflect its assessment of the risks of spreading
COVID-19 associated with particular activities, secular or
religious. The state’s permission for larger gatherings in casinos
than houses of worship reflected, among other things, a choice
to “reopen a highly regulated industry,” because the state could
impose “significant punishment” on the gaming industry if it did

20
This approach fully realizes the aim of the Free
Exercise Clause—to “protect[] religious observers
against unequal treatment and against laws that impose
special disabilities on the basis of religious status,”
Espinoza, 140 S. Ct. at 2254 (quoting Trinity Lutheran
Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 2019
(2017) (internal quotation marks and alterations omitted)),
and forbid discrimination against the belief or worship
practices of any particular faith, see Smith, 494 U.S.
at 877-78 (“It would doubtless be unconstitutional, for
example, to ban the casting of statues that are to be used
for worship purposes, or to prohibit bowing down before
a golden calf.” (internal quotation marks omitted)). In
contrast, subjecting denial of religious exemption claims
to strict scrutiny would warp broader antidiscrimination
doctrine, ensuring unequal treatment for religious
claimants by “excus[ing]” them from complying with
otherwise valid laws. See Smith, 494 U.S. at 879.
Moreover, Smith coheres with the rest of the First
Amendment. Free speech principles, for example, do not
protect speech against “incidental burdens” from generally
applicable, speech-neutral laws. See, e.g., Cohen v. Cowles
Media, 501 U.S. 663, 669-70 (1991) (collecting cases and
stating that “generally applicable laws do not offend the
First Amendment simply because their enforcement
against the press has incidental effects on its ability to
not comply with COVID-19 parameters. Brief for Respondents at
18, Calvary Chapel Dayton Valley v. Sisolak, 591 U.S. ___ (2020)
(No. 19A-1070) (filed July 15, 2020). In any event, the church did
not meet its burden of showing that it was being treated differently
because of its religious character. Nevada treated churches and
movie theaters alike, limiting both to the lesser of 50% capacity or
50 persons gathered in a single room, subject to social distancing
requirements.

21
collect and report the news”); Branzburg v. Hayes, 408
U.S. 665, 682 (1972) (“It is clear that the First Amendment
does not invalidate every incidental burdening of the press
that may result from the enforcement of civil or criminal
statutes of general applicability.”).10
In contrast, applying strict scrutiny to claims
for religious exemptions departs from broader First
Amendment jurisprudence. This Court has consistently
upheld content-neutral speech restrictions that incidentally
burden the exercise of religion without requiring narrow
tailoring. See, e.g., Heffron v. Int’l Soc’y for Krishna
Consciousness, Inc., 452 U.S. 640 (1981); Cox v. State
of New Hampshire, 312 U.S. 569 (1941). In such cases,
“[b]ecause the class of religious speakers is likely to be
more limited in number than the class of all speakers,
the state’s interest in proscribing the expression of only
religious claimants may not be deemed as compelling
as when measured against the class of all speakers.”
William P. Marshall, The Religious Freedom Restoration
Act: Establishment, Equal Protection and Free Speech
Concerns, 56 Mont. L. Rev. 227, 245 (1995). Strict scrutiny
would mean that a person challenging a restriction of
speech under the auspices of a religious mandate would
be more likely to succeed than one who challenged the
same law for non-religious reasons. Id. A significant
imbalance would inevitably result: religious speech would
10.  United States v. O’Brien, 391 U.S. 367 (1968), is not to
the contrary. In cases evaluating content-neutral restrictions on
conduct that involves symbolic speech, this Court has consistently
ruled that government actions were constitutionally permissible
despite incidental limitations on some expressive activity. In
addition to the holding in O’Brien itself, see, e.g., Barnes v. Glen
Theatre, Inc., 501 U.S. 560, 567-70 (1991); City of Erie v. Pap’s
A.M., 529 U.S. 277, 296 (2000).

22
flourish while secular speech would be stifled, in violation
of “the seminal First Amendment principle that there
is an equality in the realm of ideas.” Id. at 244; see also
Heffron, 452 U.S. at 653 (“[N]onreligious organizations .
. . are entitled to rights equal to those of religious groups
to enter a public forum and spread their views.”); Prince,
321 U.S. at 164 (the First Amendment does not provide
“freedom of conscience a broader protection than for
freedom of the mind”).
Interpreting the Free Exercise Clause to require
religious exemptions from generally applicable laws
would present decisionmakers with the additional,
practical problem of distinguishing between beliefs that
are religious and those that are philosophical, moral, or
social. Thomas, where the United States and Indiana
Supreme Courts disagreed over whether the petitioner’s
objection to manufacturing armaments was religious
or philosophical, illustrates the problem. Marshall, In
Defense of Smith, at 319 n.59 (citing Thomas, 450 U.S.
at 714-15).
Finally, amici curiae in support of Petitioners
argue that religious liberty is insufficiently protected by
“perfect uniformity in the application of a law.” Brief for
The Church Of Jesus Christ Of Latter-Day Saints et al.
as Amici Curiae Supporting Petitioners at 31, Fulton v.
City of Philadelphia (No. 19-123) (filed June 3, 2020). But
equality under the law is a core constitutional principle.
The suggestion that the free exercise of religion and
religiously motivated conduct stand alone as the most
favored First Amendment activity, more worthy of
protection than analogous claims of conscience and the
right to the freedom of speech, is in tension with our

23
constitutional tradition. See Welsh v. United States, 398
U.S. 333 (1970) (holding that the conscientious objector
provision of Universal Military Training and Service Act
should be construed to exempt from military service those
whose moral, ethical, or religious beliefs preclude their
participation in war.); see also Frederick Mark Gedicks,
An Unfirm Foundation: The Regrettable Indefensibility
of Religious Exemptions, 20 U. A rk. Little Rock L. J.
555 (1998).
*

*

*

For the foregoing reasons, both history and logic
demonstrate that the Free Exercise Clause does not
require religious exemptions from generally applicable,
religion-neutral laws. Smith was correctly decided.
II. REPLACING SMITH WITH PETITIONERS’
STRICT SCRUTINY TEST WOULD UNDERMINE
JUDICIAL ADMINISTRATION OF THE LAW
AND CREATE A REGIME OF EXEMPTIONS ON
DEMAND
Petitioners ask this Court to “revisit” Smith and
replace its clear, administrable rule with a “strict scrutiny”
test modeled on “RFRA, RLUIPA, state RFRAs, and the
Sherbert/Yoder line of cases . . . .” Pet. Br. 50. Petitioners
conspicuously fail to describe or propose the particulars
of an administrable test. They do not explain how courts
could apply a strict scrutiny test with more doctrinally
sound and consistent results than the unpredictable Free
Exercise cases of the 1980s. See, e.g., Pet. Br. 50-52. Nor
can they. Replacing Smith with a strict scrutiny test of the
sort Petitioners seek would be disastrous for both judicial
administrability and substantive constitutional norms.

24
A.

Petitioners’ test would inject inconsistency
and unpredictability into a coherent and
administrable area of law

Smith and its progeny provide a clear, administrable
rule for adjudicating claims for religious exemptions.
Petitioners, however, urge the Court to replace Smith
with a strict scrutiny test that would require courts to
balance religious burdens against the state’s regulatory
interest. Replacing Smith with Petitioners’ test would
necessitate a “judgment-by-judgment analysis” of Free
Exercise protections that this Court has explicitly
rejected. Espinoza, 140 S. Ct. at 2260. Moreover, the
balancing test Petitioners suggest invites inconsistent
results and could disadvantage religions outside the
Judeo-Christian tradition. Compare Lyng, 485 U.S. at
452-57 (refusing to apply Sherbert/Yoder to government
interference with Native American spiritual site on public
land), and Bowen, 476 U.S. at 693 (declining to extend
Sherbert to Native American religious belief on grounds
it implicated governmental, not individual, conduct), with
Hobbie, 480 U.S. at 141-42 (rejecting Bowen’s reasoning
to grant religious exemption to Seventh-day Adventist).
This Court’s Free Exercise and contemporary
RFRA jurisprudence illustrate the difficulty of defining
a “substantial burden” on free exercise of religion,
underscoring the inconsistency, uncertainty, and
unworkability of Petitioners’ test. A court’s “narrow
function” in reviewing a religious exemption claim is to
determine only whether an individual’s asserted religious
belief represents an “honest conviction,” not to decide its
validity or worth. Thomas, 450 U.S. at 716; cf. June Med.
Servs. v. Russo, 140 S. Ct. 2103, 2136 (2020) (Roberts,
C.J., concurring in the judgment) (noting that courts
lack any “plausible” way to “objectively assign weight

25
to . . . imponderable values”). This Court repeatedly has
“warned that courts must not presume to determine . . .
the plausibility of a religious claim.” Smith, 494 U.S. at 887
(collecting cases).11 Indeed, after this Court’s decision in
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014),
claimants have become their own judge of what counts as a
substantial burden on their religious exercise, and courts
may not review a plaintiff’s self-identified religious beliefs
for anything other than sincerity. Id. at 725 (stating that,
where RFRA plaintiffs “sincerely believe that providing
the insurance coverage demanded by the HHS regulations
lies on the forbidden side of the line . . . it is not for [the
Court] to say that their religious beliefs are mistaken
or insubstantial.”); see also Frederick Mark Gedicks,
Substantial Burdens: How Courts May (and Why They
Must) Judge Burdens on Religion Under RFRA, 85 Geo.
Wash. L. Rev. 94 (2017) (noting Zubik v. Burwell, 136
S. Ct. 1557 (2016), “left undecided whether courts may
adjudicate the substantiality of burdens on religion in
light of the religious-question doctrine” and underscoring
the doctrinal consequences of “entrust[ing] the question”
to religious claimants “so self-interested in the answer,
however sincere their belief”); Hobby Lobby, 573 U.S.
at 760 (Ginsburg, J., dissenting) (“[T]oday’s decision
elides entirely the distinction between the sincerity of a
challenger’s religious belief and the substantiality of the
burden placed on the challenger.”).
11.  See also Our Lady of Guadalupe Sch. v. MorrisseyBerru, 140 S. Ct. 2049, 2069 (2020) (rejecting argument that
would require “courts to delve into the sensitive question of what
it means to be a ‘practicing’ member of a faith”); Smith, 494 U.S.
at 887 (“Judging the centrality of different religious practices
is akin to the unacceptable business of evaluating the relative
merits of differing religious claims.” (internal quotation marks
and citation omitted)).

26
Overruling Smith, and imposing a constitutional
framework on all state and local policies akin to that in
Sherbert-Yoder and RFRA, will replicate and exacerbate
the difficulties in judicial administration found in those
contexts.
B. Petitioners’ test would invite exemptions “on
demand”
If, as one would expect, the Hobby Lobby Court’s
approach to “substantial burdens” under RFRA feeds
back into Free Exercise adjudication, religious exemption
claims will routinely trigger the strict scrutiny standard
that Petitioners advance. And the Hobby Lobby Court’s
approach to the Sherbert/Yoder standard would be nearly
impossible for governments to overcome, resulting in
widespread religious exemptions to generally applicable
laws, and diminishing the government’s ability to
effectively regulate conduct.
Strict scrutiny has proven onerous in the RFRA
context in part because there is nearly always a less
restrictive means to accomplish the Government’s goal—
even if it imposes significant expense on the taxpayer. See
Hobby Lobby, 573 U.S. at 730; see also id. at 766 (Ginsburg,
J., dissenting) (“[W]here is the stopping point to the ‘let
the government pay’ alternative? . . . [T]he Court cannot
easily answer that question . . . .”). And this standard is
particularly difficult to satisfy because the government’s
interest is balanced against the impact on a few religious
objectors. The state will rarely succeed in arguing that
its interests—even when compelling—will be undermined
by granting an exemption to a handful of objectors. See
Yoder, 406 U.S. at 235-36 (finding that the state failed
to adequately show “how its admittedly strong interest

27
in compulsory education would be adversely affected by
granting an exemption to the [plaintiffs]”).
Jettisoning Smith in favor of a stringent, RFRA-like
standard for Free Exercise claims would make virtually
every law vulnerable to a Free Exercise challenge, and
open the floodgates to “religious exemptions from civic
obligations of almost every conceivable kind,” Smith, 494
U.S. at 888. Under such a standard, it is easy to foresee
religious exemptions to applications of criminal law, tort
law, child welfare law, marriage and divorce law, labor and
employment law, abortion regulation, and so on. Recent
challenges to generally applicable laws, routinely denied
now under Smith and its progeny, would be vindicated
under strict scrutiny, vividly foreshadowing the burden
on the courts and on legitimate government interests
under a jurisprudence of exemptions “on demand.” See,
e.g., Doe v. Parson, 960 F.3d 1115 (8th Cir. 2020) (denying
Satanic Temple member’s free exercise challenge to
Missouri’s informed consent to abortion law); State v.
Sunderland, 168 P.3d 526 (Haw. 2007) (denying Cannabis
Ministry member’s claim for exemption from state drug
law); Plumbar v. Perrilloux, 2020 WL 3966876 (M.D.
La. July 13, 2020) (denying religious claimants’ motion
for injunctive relief, on Free Exercise grounds, against
Louisiana’s cockfighting prohibition).
Under Petitioners’ test, courts faced with such claims
could avoid applying strict scrutiny only on the grounds
that a claim is “so bizarre, so clearly nonreligious” as to be
beyond the ambit of the First Amendment. Thomas, 450
U.S. at 715. This escape valve will necessarily invite courts
to become “arbiters of scriptural interpretation”—a role
that Thomas purported to reject, id. at 716—by assessing
the reasonableness of claimed religious beliefs, a task from

28
which courts should be constitutionally barred, see United
States v. Ballard, 322 U.S. 78, 92 (1944) (Jackson, J.,
dissenting) (“[A]s a matter of either practice or philosophy,
I do not see how we can separate an issue as to what is
believed from considerations as to what is believable.”).
As this Court has recognized repeatedly, courts are
particularly ill-suited to resolve such questions, which
entangle religion and state in ways that compromise both.
See, e.g., Our Lady of Guadalupe Sch., 140 S. Ct. at 2061
(emphasizing “church independence in matters of faith and
doctrine”); Hosanna-Tabor Evangelical Lutheran Church
& Sch. v. EEOC, 565 U.S. 171, 188-89 (2012) (underscoring
constitutional prohibition on “government involvement
in . . . ecclesiastical decisions”).12 And judicial review of
reasonableness would inevitably privilege more familiar
religious beliefs at the expense of less-familiar religious
beliefs, a result that is anathema to the Free Exercise
Clause. The standard for which Petitioners advocate would
thus perversely render minority beliefs disproportionately
vulnerable to suppression.
Petitioners point to RFRA’s strict scrutiny standard
as an exemplar of what the Court should adopt in place
12.  Adjudication of the “ministerial exception” recognized
in Hosanna-Tabor and Our Lady of Guadalupe School does not
entail any balancing of state interests against competing claims
of ecclesiastical freedom. As the Chief Justice noted in HosannaTabor, the First Amendment has already “struck the balance.”
565 U.S. at 196. See generally Ira C. Lupu & Robert W. Tuttle,
The Mystery of Unanimity in Hosanna-Tabor Evangelical
Lutheran Church & School v. EEOC, 20 Lewis & Clark L. Rev.
1265 (2017) (arguing that Hosanna-Tabor rests entirely on the
longstanding doctrine of judicial abstention from decision of
exclusively ecclesiastical questions, and its unanimity is therefore
no mystery at all).

29
of Smith. E.g., Pet. Br. 18, 38-39, 50. But experience
demonstrates that if a RFRA-like standard were endowed
with constitutional dimensions, it would diminish the
power of state and local governments to protect their
citizens. See, e.g., United States v. Girod, 159 F. Supp. 3d
773 (C.D. Ky. 2015) (RFRA barred U.S. Marshals Service
from photographing Amish detainee as part of standard
processing procedure); Perez v. Paragon Contractors,
Corp., 2014 WL 4628572 (D. Utah Sept. 11, 2014) (RFRA
barred the Department of Labor from questioning a
fundamentalist Mormon about the inner workings of
his sect during child labor investigation). If Petitioners’
view were to prevail, lower courts would face a lose-lose
choice. They could either hamstring local governance
and undermine the rule of law, or sacrifice uniformity
and predictability for pre-Smith-style workarounds that
enable governments to exercise legitimate police powers.13
This Court should not relaunch such a regime.
*

*

*

In the three decades since Smith, the decision has
provided a clear, administrable approach that is consistent
with First Amendment principles and does not impose an
unreasonable barrier to government action. Petitioners’
test, on the other hand, poses manifold threats. It would
resurrect a highly subjective case-by-case approach to
Free Exercise claims, force courts to take up ecclesiastical
questions they have long disclaimed, and generate
13.  Pre-Hobby Lobby RFRA jurisprudence provides a
blueprint for such workarounds. See Lupu, Dubious Enterprise,
at 60-61 & n.118 (documenting persistent workarounds in federal
Courts of Appeals). Similarly, state courts often smuggled freeexercise workarounds into state RFRA applications. Id. at 74.

30
inconsistent applications of the “substantial burden” test.
Petitioners’ test would stack the deck heavily in favor of
religious claimants, wreaking havoc on the affairs of state
and local governments. It would flout the Constitution’s
mandate for evenhandedness by elevating religious
claimants above all secular counterparts. Petitioners’ test
would produce a profoundly unworkable body of law, under
which religious exemptions from a wide array of statutes
could be readily obtained. These dire consequences
underscore that Smith should not be “revisited,” but
reaffirmed.
CONCLUSION
This Court should affirm.
Respectfully submitted,
David S. Flugman
Counsel of Record
Faith E. Gay
Caitlin J. Halligan
David A. Coon
Selendy & Gay PLLC
1290 Avenue of the Americas
New York, New York 10104
(212) 390-9000
dflugman@selendygay.com
Counsel for Amici Curiae

